UNITED STATES DEPARTMENT OF AGRICULTURE

          OFFICE OF INSPECTOR GENERAL




 STATEMENT OF THE HONORABLE PHYLLIS K. FONG

                  INSPECTOR GENERAL

                          Before the

Subcommittee on Agriculture, Rural Development, Food and Drug
            Administration, and Related Agencies

                Committee on Appropriations

           United States House of Representatives



                       March 1, 2007
                                                                                       1

Good morning, Chairwoman DeLauro and Members of the Subcommittee.              I want to
thank you for your invitation to testify about the Office of Inspector General’s (OIG)
recent and ongoing audit and investigative work, and our Fiscal Year 2008 Budget
Request.


I would like to introduce the members of my senior management team who are with me
today: Deputy Inspector General Kathleen Tighe; Assistant Inspector General for Audit,
Robert Young; Assistant Inspector General for Investigations, Mark Woods; and
Assistant Inspector General for Management, Suzanne Murrin.


My testimony today will present the highlights of our audit and investigative work in the
year since we last appeared before the Subcommittee. OIG conducted extensive work in
2006 on important issues and USDA activities regarding food safety, the risks posed by
plant and animal-based diseases, fraud that impairs vital nutrition and hurricane-relief
programs, and financial management accountability within USDA agencies.


To ensure that OIG devotes its resources to the most pressing issues and challenges
facing USDA agencies, stakeholders, and consumers, we have formally prioritized our
work and organized our resources according to three Strategic Goals.           They are
improving Safety, Security, and Public Health in USDA operations; enhancing Program
Integrity in the many USDA benefit programs that touch the lives of your constituents;
and oversight work regarding USDA’s Management of Public Resources. I will present
the key elements of our recent and current work to the Subcommittee under the
framework of these three strategic priorities.


                          I. Safety, Security, and Public Health


One of OIG’s top priorities is conducting independent and professional audits and
investigations to protect the safety and security of USDA entities and the many
agricultural stakeholders and consumers who benefit from USDA operations each day.
In Fiscal Year (FY) 2006, we issued 12 audit reports and referred 120 investigative cases
                                                                                           2

for prosecution involving safety, security, and public health issues related to USDA
programs and operations.


Assessing the Performance of Consumer Safety Inspectors in Meat and Poultry
Establishments


In our prior audits we determined that the Food Safety and Inspection Service’s (FSIS)
management control system needed strengthening to ensure accountability of consumer
safety inspector performance. A key component of the FSIS management control system
is the In-Plant Performance System (IPPS), which was established to strengthen
supervision and improve inspector accountability. In response to several OIG audits,
FSIS has cited IPPS reviews as a critical measure to improve monitoring of food safety at
meat and poultry establishments.


In our most recent audit of this area, issued in 2006, we evaluated the adequacy of agency
policy and procedures related to preparing for, executing, and monitoring IPPS reviews.
FSIS did not require supervisors to complete and/or document the completion of all IPPS
review procedures when evaluating inspectors. In 84% of the inspector assessments OIG
reviewed, certain elements of inspector duties – some of which could be considered
critical 1 – were not addressed.         We found that FSIS did not have a system to schedule
and track the completion of IPPS reviews and supervisors were not required to use the
extensive guidance available to help them prepare for the reviews.              As a result,
supervisors had not used significant segments of the guidance to enhance their onsite
review of consumer safety inspectors.


FSIS agreed to closely monitor field managers and supervisors involved in the IPPS
process, analyze IPPS review data, and periodically evaluate the IPPS review process.
FSIS also agreed to revise its guidance to require supervisors to examine specific data
sources and system reports before performing an IPPS review and complete and provide


1
    Such as Hazard Analysis and Critical Control Point system procedures.
                                                                                           3

narratives for all IPPS review elements during an inspector’s performance rating period.


Improving Pathogen Reduction Testing in Meat and Poultry Establishments


The Pathogen Reduction Enforcement Program (PREP) is a system used to support FSIS’
pathogen reduction efforts by scheduling microbiological product sampling at FSIS-
inspected meat and poultry establishments and generating automated reports that allow
FSIS managers to monitor both the sampling process and the results of laboratory tests.


OIG evaluated the effectiveness of FSIS’ process for scheduling and conducting
microbiological testing of meat and poultry products. We found that in the testing
programs for the adulterants E. coli 0157:H7 and Listeria monocytogenes, FSIS had
developed procedures to transfer establishment data from the Performance Based
Inspection System (PBIS) to the PREP (two separate systems) and was selecting the
identified meat and poultry establishments for testing within reasonable timeframes.


However, we found that Salmonella testing program controls needed strengthening to
ensure that all applicable establishments are included in the universe for microbiological
testing. A significant number of establishments were excluded from Salmonella testing
due to ineffective processes for identifying establishments eligible for testing. FSIS
district office personnel did not fully understand the process for inserting/updating
establishments into the testing database. In one district we visited, 28 percent of the
establishments subject to Salmonella testing were excluded from testing. We also found
that establishments whose slaughter or processing activity falls below a specific threshold
or produces non-intact beef products (such as raw ground beef sausages and meatballs)
were also excluded from the universe for testing.


We recommended that FSIS strengthen its procedures to ensure that all establishments
subject to Salmonella testing are identified and modify PBIS to allow PREP to draw
establishment information for testing from PBIS rather than depend on manual updates.
The agency should develop a risk assessment to support its policy for excluding low-
                                                                                                 4

volume establishments from Salmonella testing or conduct testing in all plants. Further,
FSIS should obtain scientific advice to evaluate whether its policy of not testing certain
raw ground beef products for E. coli O157:H7 contamination should be continued. FSIS
officials generally agreed with OIG’s findings and recommendations.


Assessing FSIS Oversight of State Meat and Poultry Inspection Programs


FSIS has oversight responsibility for State meat and poultry inspection (MPI) programs
to ensure that meat and poultry products sold intrastate meet inspection standards “at
                     2
least equal to”          Federal laws and regulations. OIG initiated a review to examine the
effectiveness of FSIS management controls and procedures to ensure that State MPI
programs were “at least equal to” Federal inspection programs.


We determined that FSIS was not providing timely oversight of State MPI programs.
From October 2003 through June 2005, FSIS had conducted only 8 initial onsite reviews
from a total of 28 State MPI programs. After our fieldwork began and since July 2005,
FSIS initiated reviews of 16 more State MPI programs and developed plans to conduct
the 4 remaining reviews prior to the end of FY 2006. Completing the review process is
important, especially since four of the eight programs initially reviewed needed
corrective actions to achieve “at least equal to” Federal standards. 3


Moreover, FSIS had not performed timely onsite fiscal reviews and reviews of new
programs and did not timely implement its year-end grant closeout procedures to ensure
that State MPI programs promptly returned any excess Federal funds. FSIS had not
recovered $260,201 in excess Federal funds from one State for FY 2004. In this State,
during FY 1997–2004, unnecessary interest costs of approximately $100,000 were
incurred by the Federal Government because the State retained unused Federal funds.




2
    As established by the Federal Meat Inspection Act and the Poultry Products Inspection Act.
3
    FSIS issued a report in January 2007 that contained the results of all 28 reviews.
                                                                                         5

OIG made numerous program improvement recommendations based upon this audit. We
recommended that FSIS establish criteria to determine how deficiencies in meat
processing establishments affect State acceptability determinations. FSIS should analyze
the staffing requirements of State MPI programs and confirm that laboratories adhere to
standards “at least equal to” Federal requirements. The agency needs to eliminate the
backlog of onsite fiscal reviews and perform timely, year-end grant closeouts of State
MPI programs and seek prompt recovery of $260,201 from the identified State MPI
program.    FSIS responded positively to OIG’s recommendations, and management
decision was reached on 6 of the 12 recommendations.


The USDA Response to Avian Influenza


The emergence of highly pathogenic Avian Influenza (HPAI) as a potential pandemic has
rapidly changed the environment in which the Animal and Plant Health Inspection
Service (APHIS) operates. The November 1, 2005, issuance of the President’s strategy
for the preparation, detection, and response to a pandemic accelerated APHIS’ actions in
dealing with AI. The strategy recognizes roles for all segments of society, including
Federal, State, local and Tribal governments, private industry, international trade
partners, and individual citizens.


In our June 2006 review of APHIS’ oversight of Avian Influenza (AI), we concluded that
APHIS has made commendable progress in developing plans and establishing the
networks necessary to prepare for, and respond to, outbreaks of AI. However, APHIS
had not yet developed a comprehensive approach for surveillance and monitoring of AI
in domestic poultry. APHIS relies on a variety of voluntary State and commercial
programs to monitor and test domestic poultry and wild birds. Because these programs
are voluntary, APHIS did not know the extent of surveillance activity in place and was
not gathering consistent data to properly detect changes in epidemiological parameters
(e.g., subtype of AI or rate of prevalence) or to report incidents of AI in accordance with
new international trade requirements.
                                                                                                            6

In regard to USDA’s National AI Preparedness and Response Plan, OIG found that
APHIS needed to provide additional guidance on preparing and responding to HPAI or
notifiable AI outbreaks in live bird markets or other “off farm” environments. 4 APHIS
also needed to clarify actions that employees should take in obtaining and administering
necessary vaccines and anti-virals in the event that a culling operation for HPAI occurs.
Finally, APHIS needed to finalize interagency coordination on the process and
procedures for notifying owners of susceptible animals of the current infectivity risks and
the necessary protective actions they should take when an outbreak of AI occurs. In its
response, APHIS described a number of initiatives planned and in-process to address our
concerns.


OIG currently has a related audit underway. We are evaluating the effectiveness of
APHIS’ implementation of the Homeland Security Council’s National Strategy for
Pandemic Influenza (issued May 2006). We will also follow up with the agency on its
corrective actions responding to our prior audit.


Targeting the Smuggling of Animals and Plant Products


The smuggling of animals and animal/plant products into the United States is of
significant concern. The smuggling of these products presents both a human health risk
and a risk to the United States’ animal and plant populations because of the potential for
the transmission of disease.


OIG works closely with USDA regulatory agencies such as APHIS and FSIS that enforce
standards for the importation for meat, poultry, and live animals into the United States.
As stated in our testimony before the Subcommittee last year, OIG works with USDA
agencies to achieve a balance among risk mitigation efforts, regulatory investigations,
and criminal investigations when such products are smuggled into the United States. To


4
  The plan is intended to complement regional, State, and industry plans that are written to be more specific
to local issues and needs. States should continue to develop plans that are specific to their poultry
industries and requirements. The USDA/APHIS plan will evolve as additional information and experience
is gained.
                                                                                         7

achieve this goal, we have been working to establish protocols to clarify each USDA
agency’s role in response to smuggling. We anticipate the Department will issue these
protocols this summer.


One of the groups in which OIG is participating is an interagency working group
comprised of both regulatory and law enforcement agencies from the Department of
Homeland Security (DHS), the Department of Justice, and the Department of Interior.
While the initial objective of this working group was to improve smuggling
investigations concerning HPAI, OIG’s participation has also improved our investigative
capabilities to respond to smuggling investigations involving any type of prohibited
product.     The inter-agency working group fostered productive relationships and
communications between OIG and those departments and more clearly defined our
respective roles.


OIG participated in a joint investigation at the Port of Newark known as “Operation Fowl
Play.”     The investigation led to the seizure of approximately 1 million pounds of
prohibited poultry, fowl, meat, pork, vegetables, fruit, and other merchandise over several
months. The investigation, which began in 2005, involved several New York based
companies responsible for importing these products from China.


Preparing for Agricultural Emergency Situations and Wildland Fire Fatalities


OIG’s Emergency Response Team (ERT) and Wildland Fire Investigation Team (WFIT)
engaged in training and were both actively deployed in FY 2006. The ERT has the
capability to safely and effectively respond to criminal acts that could threaten or
compromise the United States’ food supply, agricultural infrastructure, or USDA
facilities. The WFIT is responsible for conducting an independent investigation into the
deaths of any Forest Service (FS) firefighters who are killed as a result of a burnover or
entrapment. We thank the Members of the Subcommittee for your continued support of
these important programs.
                                                                                                    8

During 2006, ERT members participated in several tabletop exercises concerning AI and
Foot and Mouth Disease, attended Food Defense Exercises, and State and local
emergency preparedness meetings. Our ERT works with various Federal, State, and local
agencies to educate them about the assistance and resources OIG can provide when an
agriculture-related incident occurs. Coordination with and outreach to our counterparts at
the State and local level is vital to build the skills and partnerships necessary for
effective, multi-level government responses to agricultural emergencies.


During the execution of a search warrant in one investigation in 2006, the ERT assisted
with the identification and depopulation of game fowl at an illegal cockfighting pit in
Oklahoma. Birds utilized in animal fighting competitions present a health risk to humans
and animals because the birds may carry infectious diseases such as Exotic Newcastle
Disease and AI.


Our WFIT members undergo extensive training to gain the skills and experience
necessary to conduct wildland fire-related investigations. 5          The OIG agents comprising
the WFIT attend the FS’ Basic Fire Academy that incorporates training in Incident
Command, Basic Wildfire Suppression Orientation, Firefighter Training, Introduction to
Wildland Fire, and Interagency Serious Accident Investigation Training. In October
2006, WFIT members responded to the Esperanza Fire that claimed the lives of five FS
fire engine crew members near Cabazon, California. WFIT members arrived at the site
within 24 hours of the fatalities to begin organizing their investigation. OIG’s
investigation of the circumstances leading to the Esperanza Fire deaths is ongoing.


The Bovine Tuberculosis Eradication Program


APHIS administers the Bovine Tuberculosis Eradication Program (BTEP) that was
established in 1917 to eliminate bovine tuberculosis (TB) in the United States. Because
of concerns we previously identified regarding the agency’s systemic classification and


5
  Public Law 107-203, enacted July 24, 2002, established the statutory requirement for a USDA-OIG
investigation of FS fatalities occurring due to wildland fires.
                                                                                                      9

testing of relevant TB cases in one State, OIG conducted a more comprehensive audit of
APHIS’ administrative controls over BTEP. We found that APHIS had made
improvements to BTEP since the Secretary’s Emergency Declaration in October 2000, 6
but weaknesses in oversight made it difficult for the agency to timely detect and eradicate
the disease. APHIS’ status system—important because it dictates the extent of Federal
testing and movement controls for cattle in each State or zone—did not capture most TB
cases.   From FY 2001 through 2005, 272 TB-infected cattle were detected through
slaughter surveillance, but APHIS excluded 96% from the status system because it could
not locate the source herd or find an additional infected animal in that herd.
Approximately 75 percent of the TB-infected cattle detected through slaughter
surveillance originated in Mexico, and these animals spent months at U.S. farms and
feedlots with no restrictions to prevent commingling with domestic cattle. Mexican cattle
are tested before entry, but APHIS had not established controls to compensate for the
3-to-12 month TB incubation period.


We recommended that APHIS perform program reviews periodically; review and
approve States’ annual and monthly reports and use them to assess/minimize areas of
highest risk; enhance its two key BTEP control functions (the status classification and
slaughter surveillance systems); and strengthen movement/testing controls to address the
disease’s incubation period. The agencies agreed to take corrective actions based on our
findings and recommendations.


Agricultural Inspection Efforts on the U.S. Border


With the creation of DHS in March 2003, U.S. Customs and Border Protection (CBP)
assumed responsibility to inspect agricultural goods arriving at U.S. ports while APHIS
retained responsibility for agriculture related policies and procedures. We are issuing a
report this week from our joint review with DHS-OIG of border inspection issues. We
assessed selected agricultural inspection activities that were transferred to CBP.


6
 The emergency declaration authorized the transfer of $44.1 million from emergency contingency funds to
APHIS to expand the TB eradication program.
                                                                                         10



Our joint review found that CBP generally complied with agricultural inspection
requirements at the ports we visited. However, improvements are needed regarding risk
identification activities. CBP’s sampling for Agricultural Quarantine Inspection
Monitoring (AQIM)–which helps USDA predict future risks to agriculture from
pests/diseases–did not meet sampling requirements for 13 of 18 pathway activities at four
ports. 7      CBP also lacks a current staffing model for agriculture specialists and
performance measures for many activities that would ensure personnel are used
effectively.


APHIS officials agreed to develop a risk assessment process for incoming rail cargo.
However, agency officials cite operational difficulties (such as obtaining timely cargo
manifests) as a barrier to developing a workable system. APHIS has not yet issued
policies and uniform procedures to clearly define how transportation/export shipments
will be monitored.          We also found that APHIS needs to issue instructions to CBP
clarifying APHIS policy on labeling and packaging seized agricultural products.


               II. Protecting and Improving the Integrity of USDA Programs


OIG’s second strategic priority is audit and investigative work to protect the integrity and
efficiency of USDA programs and benefits. A substantial amount of OIG’s audit and
investigation resources in FY 2006 were focused on Farm Service Agency (FSA) and
Risk Management Agency (RMA) programs and operations. OIG continues to work to
combat fraud and deter criminal activity in farm programs, such as payment limitations,
crop insurance, and conversion of mortgaged property.


Food and Nutrition Service (FNS) programs providing food assistance to needy
Americans is a major portion of USDA’s annual budget–the Food Stamp Program helps
over 26 million people each month, and 15.5 million children receive a free or reduced-
price school lunch. Fraud in FNS programs such as the Women, Infants, and Children

7
    Such as air passengers and truck cargo AQIM inspections.
                                                                                     11

(WIC), Food Stamp, and the Children and Adult Care Feeding Programs remains a high
priority for OIG.


USDA Compliance with the Improper Payments Information Act


Within USDA, the Office of the Chief Financial Officer (OCFO) is designated as the lead
agency for coordinating and reporting on the Department's efforts to implement the
Improper Payments Information Act (IPIA). OCFO has designated IPIA compliance as a
top priority for FY 2007.


To determine the Department’s compliance with IPIA, OIG initiated audits of four
USDA agencies in FY 2006 – FSA, FS, Rural Development’s (RD) Rural Housing
Service (RHS), and the Natural Resources Conservation Service (NRCS). Our objectives
included reviewing agency efforts to quantify improper payments for high risk programs,
assessing agency corrective actions related to our previous audits, and substantiating
agency results reported in USDA’s Performance and Accountability Report for FY 2005.


Our audits revealed significant findings on agency compliance with IPIA. OIG found
that valid statistical samples had not been performed for three of the four agencies
reviewed. Improper payments reported in FY 2005 were not properly calculated and the
estimated improper payments reported in FY 2005 did not always include payments made
to ineligible recipients. We determined that corrective actions were too narrow in scope
and ineffective in addressing our prior findings. OCFO generally agreed with our
recommendations to correct these conditions and we are working with agencies to
improve their implementation of IPIA requirements. OIG is currently auditing several
USDA agencies to assess their efforts to quantify improper payment error rates for high
risk programs.
                                                                                          12


Farm Programs–Improving Agency Controls to Prevent Loans to Ineligible
Recipients


When farmers and ranchers are unable to repay their Farm Loan Programs (FLP) loans in
full, Congress requires that FSA consider them ineligible for future loans. Using data-
mining techniques, we reviewed the approximately 139,000 loans active in FSA’s
database (as of the beginning of FY05) to isolate 239 borrowers who were potentially
ineligible for having received prior debt forgiveness. Our detailed review of six
potentially ineligible borrowers revealed that three were, in fact, ineligible and should not
have received FLP loans. FSA subsequently reviewed all 239 borrowers and ultimately
found 113 loans totaling over $7.5 million, issued during 1999–2004, were ineligible. In
general, we determined that the unauthorized assistance occurred because FLP loan
officials did not follow established procedures for determining applicants’ eligibility and
FSA’s automated management tools lacked the applicants’ complete debt history.


FSA took action to collect the 113 ineligible loans as appropriate. Further, FSA issued
guidance to help employees determine whether applicants have received prior FLP debt
forgiveness and is developing a new automated system that will automatically display
applicants’ complete debt histories. FSA is currently pilot testing the new system at two
State offices and plans to implement it nationwide.


Improving the Integrity of the Crop Insurance Program


Due to continuing concerns about costs incurred by the Federal crop insurance program,
OIG conducted an overview of the program. In collaboration with FSA and RMA, OIG
identified conditions that are often associated with fraud, abuse, and mismanagement.


We identified two major factors that must be in place to enhance the integrity of the crop
insurance program: effective management controls to ensure program operations are
meeting program objectives and aggressive enforcement through criminal investigations
and agency compliance reviews.
                                                                                      13



Based on this overview and our discussions with FSA/RMA about the current state of the
crop insurance program, we presented a series of recommendations that are consistent
with OIG’s prior work. Among other recommendations, we found that agency officials
should accelerate plans to create a single comprehensive information system for crop
insurance, conservation, and farm programs; increase coordination and communication
between RMA and FSA to ensure more effective growing season inspections; and
strengthen RMA’s oversight and monitoring of the private sector’s application of the
quality control review system.


Investigating Fraud in USDA Farm Programs


A recent OIG investigation resulted in a Montana producer and a former loan officer
being sentenced for a scheme in which the producer filed false claims with FSA in order
to receive program payments. The producer circumvented program payment limitations
to fraudulently receive $1.4 million. The private loan officer provided false financial
documents to FSA regarding the other partners’ participation in the farming operation. In
July 2006, the producer was sentenced to serve 10 months in Federal prison and ordered
to pay $226,035 in restitution. The former loan officer was sentenced the following
month to a period of home confinement and probation.


Another OIG investigation into potential farm program fraud resulted in orders to repay
the Government over $1 million and the sentencing of two individuals and three
corporations in 2006. Our investigation revealed that two individuals and three
corporations in the Texas panhandle fraudulently obtained approximately $400,000 in
RMA crop insurance indemnity payments and FSA disaster program payments by
shifting their unreported cotton production for program payment purposes. The producers
assigned their hidden cotton production to other established accounts at a cotton gin
owned by one of the individuals.    A producer and two corporations were sentenced in
August 2006. The producer was sentenced to 12 months’ imprisonment, followed by
                                                                                     14

36 months’ supervised release, and was ordered to pay approximately $331,000 in
restitution. The corporations each received sentences of 60 months of probation and were
ordered to pay restitution totaling approximately $331,000. In September 2006, the
second individual and the remaining corporation were both sentenced to 60 months of
probation and were ordered to pay restitution of $362,775, severally and jointly.


A third OIG investigation involving farm program fraud resulted in the repayment of
$1,085,000 to FSA. The Idaho producer involved received 3 years of probation and
80 hours of community service. The producer’s son was also sentenced to 3 years
probation and was fined $4,000. The sentence included a joint restitution order of
$1,085,000 imposed on the two defendants. The OIG investigation disclosed that the
mother and son converted 305 head of cattle pledged as collateral to FSA. They pled
guilty in May 2006 to theft/conversion of FSA collateral. FSA also has a lien against
their property that is valued at more than $1 million.


USDA Food Programs–FNS Oversight of Electronic Benefits Transfer Operations


In FY 2007, FNS estimates Food Stamp benefits of about $30 billion will be provided to
over 25 million participants. State agencies now deliver Food Stamp Program (FSP)
benefits almost entirely through Electronic Benefit Transfer (EBT) systems using EBT
benefit cards issued to recipients. OIG has monitored and audited the implementation of
EBT by FNS and States since the system’s inception in the 1990s. We recently issued a
follow-up audit to evaluate corrective actions FNS has taken in response to our prior
audits and to ensure adequate agency oversight of EBT systems.


We concluded that FNS oversight of EBT operations was generally effective. However,
despite FNS requirements to safeguard EBT systems, inadequate control over State
agency access to the system remains a problem. Based on our earlier work, FNS had
agreed to strengthen procedures for controlling access to State EBT systems and directed
States to conduct semiannual reviews of employee access.          However, FNS did not
independently confirm that States adequately controlled access.
                                                                                                      15

EBT trafficking through the illegal and unauthorized use of Point of Sale (POS)
equipment is another system vulnerability. Unscrupulous retailers have circumvented the
EBT security controls by fraudulently obtaining new equipment and/or illegally moving
existing machines to unauthorized locations. Our September 2006 report found that in
their contract proposals to acquire EBT systems, States were not required to consider
equipment functionality and/or technological specifications that could prevent the illegal
removal and unauthorized use of existing EBT POS equipment.


Based on our audit, FNS agreed to take steps to ensure that States limit unauthorized
access to EBT systems and to require States to implement, via the EBT contract, formal
processes during POS equipment replacement to prevent retailers from fraudulently
obtaining equipment.


This year, we will conduct further audits regarding FNS oversight of EBT systems. Our
work will include reviewing FNS oversight of the largest private EBT processor and two
State agencies.


Investigations of EBT Trafficking


OIG devotes extensive resources to investigate unscrupulous retailers who circumvent
EBT security controls by fraudulently obtaining new equipment and/or illegally moving
existing machines to unauthorized locations. In our Food Stamp Program investigative
work, we focus our resources on high impact cases, such as those involving large-scale
traffickers, those with potential connections to terrorist activity, and cases involving
additional types of criminal activities beyond benefit fraud. 8 Comparing our final FY
2006 investigative statistics to the prior fiscal year, the number of food stamp trafficking
investigations we opened increased from 77 to 84; the number we referred to DOJ
increased from 21 to 31; and the number of indictments resulting from OIG food stamp
investigations increased from 70 to 146.


8
 Examples would be food safety concerns affecting public heath, such as contaminated food or black-
market WIC products.
                                                                                        16



EBT fraud cases are very complex investigations, so OIG worked in 2006 to develop and
conduct training focused on improving methods to detect and analyze trends indicating
fraud. OIG is creating a database that will capture vital information regarding EBT
trafficking investigations to identify large scale fraud networks.


OIG has initiated numerous investigations as a result of our collaborative efforts with
multiple Federal and local law enforcement agencies. A major OIG food stamp fraud
investigation resulted in a Chicago grocery store owner being sentenced in August 2006
to 51 months in prison and ordered to pay $1.4 million in restitution. The store owner
pled guilty to wire fraud and money laundering. Two months earlier, the store owner
pled guilty in Federal court in Florida to conspiracy for providing funding to the
Palestinian Islamic Jihad, in violation of the International Emergency Economic Powers
Act. The store owner had conspired with other persons and unauthorized stores to
conduct thousands of illegal electronic food stamp benefit transactions.


Expanding Efforts to Deter WIC Fraud


WIC is a vital Federal program to provide supplemental foods and nutrition education to
lower-income pregnant, breast-feeding, and postpartum women, and infants and children
who are at nutritional risk.


The main product purchased with WIC vouchers is infant formula. Theft rings around
the country are stealing, re-labeling, and reselling infant formula. When infant formula is
stolen, it is taken out of the regulated retail system, and there can be no guarantee the
formula is safe and wholesome. In response to this growing concern, OIG is expanding
alliances with State and local law enforcement agencies to better coordinate jurisdictional
investigative efforts into broader regional efforts. Our ultimate objective is to develop a
national initiative that will enable OIG to track and maintain records of stolen infant
formula incidents across the United States.
                                                                                         17

A recent OIG infant formula investigation involved an Ohio furniture store owner who
led a nationwide network that trafficked in stolen merchandise and food stamps through
inner-city markets.   The stolen merchandise included infant formula, diabetic blood
glucose test strips, and over-the-counter medications.      The stolen merchandise was
transported to wholesalers and warehouses in States including Indiana, Illinois,
Wisconsin, New York, Florida, and California. The store owner and 24 other individuals
were charged with crimes ranging from food stamp trafficking to transportation of stolen
property and money laundering. During 2005-2006, 21 individuals have pled guilty or
were found guilty, including the leader of the criminal organization. Sentences imposed
on the defendants ranged from 8 months to 11 years, and monetary judgments and
restitutions totaled over $2.7 million. On February 20, 2007, two of the three store
owners involved in the scheme in Wisconsin pled guilty to false statements and
conspiracy; the third is awaiting trial. This was a joint investigation with the FBI and the
Ohio Organized Crime Investigations Commission.



A second OIG infant formula investigation determined that a Pennsylvania convenience
store owner was trafficking in food stamps and operating and engaging in an unlicensed
money transmitting business. From 2001 to May 2006, the store owner transmitted more
than $7 million dollars without the license required by Federal and State law. The store
owner bought and sold stolen goods such as infant formula, drug paraphernalia, and
counterfeit cigarettes and music CDs. The store owner pled guilty in Federal court in
November 2006 to operating an unlicensed money transmitting business and agreed to
forfeit over $252,000. This investigation was part of a taskforce that included OIG
agents and several other Federal and State enforcement agencies (FBI, Immigration and
Customs Enforcement, Secret Service, IRS, and the Pennsylvania Department of
Revenue).
                                                                                     18


The OIG Response to Hurricanes Katrina and Rita: Audit Oversight and
Investigative Support


During last year’s testimony, we discussed USDA’s role in the Federal recovery efforts
related to Hurricanes Katrina and Rita. OIG continues to work with the President’s
Council on Integrity and Efficiency (PCIE) and DHS working groups to coordinate
related investigative efforts and thereby maximize Federal investigative resources and
prevent duplicative efforts. We coordinated efforts with both the Department of Housing
and Urban Development’s (HUD) OIG and DHS-OIG to develop computer matching
agreements with RHS. These agreements facilitate the ability of the participants to
identity improper and fraudulent disaster assistance payments. Data matching is a highly
effective tool in disaster assistance payment investigations for all of the agencies
involved.


OIG special agents are working Hurricane Katrina Fraud Task Force investigations in the
Gulf Coast region.      We continue to receive referrals throughout the country on
individuals who have submitted false claims or provided false statements to obtain
Federal benefits for which they were not entitled.          At this time, as hurricane
reconstruction efforts in the Gulf Coast region continue, OIG has begun receiving
investigative referrals from FSA and RD that involve larger monetary amounts of fraud
or theft and more complex fraud cases.


A recent example of our hurricane relief investigative work involved an Illinois woman
who obtained at least $23,000 in Hurricane Katrina housing, food stamps, and cash
assistance for which she was not entitled. OIG worked with the Postal Service’s OIG to
determine that the individual never resided in Louisiana or Mississippi and thus would
not have been affected by Hurricane Katrina. The individual sought benefits for non-
existent family members. She pled guilty in October 2006 to mail fraud and false
statements and was sentenced in January 2007 to 48 months in Federal prison, followed
by 36 months of supervised release, and was ordered to pay $23,982 in restitution.
                                                                                         19

We have also committed significant audit resources to conduct reviews of the
Department’s hurricane relief efforts.      In view of the substantial Federal funds
appropriated for hurricane disaster relief, a continuing concern for both program
managers and the Congress is the potential for excessive or duplicative payments to
individuals in hurricane-affected communities.


In the aftermath of Hurricanes Katrina and Rita, RD–through RHS–placed 11,000
evacuees into 4,100 Rural Rental Housing (RRH) apartment units in 45 States and
provided $2.6 million in emergency rental assistance. OIG evaluated RHS management
controls for multifamily housing funds targeted for disaster assistance. We found that
most residents placed in RRH apartments needed only adequate housing and not rental
assistance because the Federal Emergency Management Agency (FEMA) was already
providing financial assistance. As a result, much of the $2.6 million provided by RHS
duplicated FEMA assistance.


Specifically, our review determined that RHS’ database system contained generally
inaccurate/incomplete information on hurricane victims and the amount of rental
assistance they received.     Some property owners required tenants to pay rent even
though the owner had already received rental assistance directly from RHS. The agency
was also not able to identify victims who used the FEMA identifying numbers of other
individuals to obtain housing assistance. OIG found that some property owners had
reclassified existing tenants as hurricane victims even though the tenants had no change
in income or other circumstances. This resulted in unnecessary RRH rental assistance to
the tenants.


RHS agreed to improve its information system and related management controls. To
better prepare for future disaster situations, the agency is implementing corrective actions
regarding coordinating its actions and information with other Federal agencies providing
housing assistance.
                                                                                        20

This year, we will continue our oversight work regarding USDA’s response to major
hurricanes.   OIG currently has 11 audits in process pertaining to the Department’s
hurricane relief operations, including reviews of FNS’ Disaster Food Stamp Program
payments in five hurricane-affected States and RMA controls to provide hurricane
victims in Florida with timely and accurate indemnity payments.


Assessing USDA Trade Programs and Operations


In 2002, the Farm Bill and the President’s Management Agenda (PMA) established a
number of new goals and requirements for the Foreign Agricultural Service (FAS), the
agency charged with coordinating USDA’s international activities. The 2002 Farm Bill’s
trade section contained 13 provisions affecting FAS programs, including export credit
guarantees, market development, export enhancement, food aid development, and
technical barriers to trade. OIG initiated a review to determine the status of FAS’ efforts
to implement the 2002 Farm Bill’s trade and food aid programs and to evaluate the
agency’s efforts to address problems that the PMA identified in food aid programs.


We found that FAS took prompt action to implement 10 out of the 13 Farm Bill trade
provisions within one year of enactment. However, FAS has not developed a business
process to ensure that the Farm Bill’s global market strategy requirements–coordinating
USDA resources and programs with other Federal agencies to identify export opportunities
and remove trade barriers–are being met on a global basis. FAS managers have followed
a strategy of supporting agricultural exporters (referred to as “cooperators”) when
implementing their individual country and regional market strategies. In our view, such
efforts have not been sufficiently integrated to produce a focused, global strategy that
would allow FAS to effectively identify and react to changing trends in global markets.
The U.S. share of global agricultural exports declined from 22% to 9.7 % during
1984–2005, yet FAS officials do not believe that a central planning process or formal
global marketing strategy is necessary.
                                                                                        21

The PMA cited several problems in U.S. food aid programs, including program
duplication between FAS and the U.S. Agency for International Development (USAID)
that wasted donated food supplies and excessive administrative/transportation costs. OIG
found that FAS has strengthened its program planning and improved consultation and
coordination with USAID, USDA’s Economic Research Service, and other organizations
to develop better outcome-oriented performance measures and reporting. However, we
recommended that FAS develop outcome-based performance measures to more
accurately reflect program accomplishments in recipient countries. OIG is currently
awaiting the agency response to our draft report.


Identifying Barriers to U.S Agricultural Exports


OIG received a congressional request in 2006 to review certain aspects of FAS market
development programs in fostering expanded trade activities for U.S. agricultural exports.
We initiated an audit to examine the extent to which FAS conducts outreach to U.S.
agricultural interests to identify trade constraints and foreign agricultural business
opportunities; determine if the agency is presenting information on identified trade
barriers to the U.S. Trade Representative (USTR) and FAS’ private sector cooperators;
and review whether USDA efforts to promote U.S. agricultural exports are being
presented, with measurable benchmarks, in the National Export Strategy. OIG’s report
will be issued this week. Our review found that FAS does not formally track its efforts to
expand trade activities or conduct outreach to U.S. exporters and does not have a formal
process for summarizing and presenting trade barriers to the USTR.


Ensuring Accountability in Foreign Food Aid Programs


FAS administers foreign food aid programs, largely through grants to intermediaries
known as private voluntary organizations (PVOs), the                 charitable, non-profit
organizations responsible for implementing program objectives abroad. FAS expended
approximately $400 million for its food aid programs in FY 2006. In March 2006, we
issued a report assessing FAS’ progress in addressing management control weaknesses
                                                                                    22

regarding the Food for Progress program identified in an earlier OIG audit. Our latest
report also reviewed eight judgmentally selected PVOs, three of which were the subjects
of a hotline complaint.      The audit evaluated issues such as internal agency
controls/processes for evaluating grant proposals and awarding grant agreements,
monitoring compliance with grant terms and conditions, and determining program results.


OIG found that many of the recommendations from our prior audit report had not been
implemented, and therefore FAS could not provide reasonable assurance that PVOs were
meeting their program objectives or spending funds appropriately.         FAS lacked
procedures to confirm that PVOs were recognized by their host governments and were
able to operate effectively in-country. FAS did not pursue grant funds lost due to PVO
mismanagement. Due to these internal control weaknesses, we concluded that FAS did
not adequately follow up and determine whether there was mismanagement of $2.2
million in grant funds.


We recommended that FAS strengthen its ability to monitor food aid agreements by
implementing procedures to review PVOs’ semiannual reports, conduct onsite reviews,
and complete closeout reviews of food aid agreements. The agency should confirm that
PVOs are viable agents in their host countries before shipping donated commodities to
these private groups and aggressively seek recovery of grant funds lost due to PVO
mismanagement.      Generally, FAS agreed with our recommendations and stated that
agency efforts were underway to implement several of them.


Oversight of Farm, Conservation, and Research Programs in 2007


OIG has initiated or plans to conduct several audits to review USDA farm and
conservation programs.     Work is underway to examine RMA’s effectiveness in
monitoring private insurance providers and determine if its compliance activities are
adequate to improve the crop insurance program and reduce fraud, waste, and abuse. We
are planning to review FSA’s management controls in 2007 to assess their effectiveness
                                                                                        23

to prevent farm program payments being made to producers who have been disqualified
due to civil, criminal, or administrative actions.


There is considerable congressional interest in expanding USDA’s role in our nation’s
efforts to develop a viable renewable energy program. The Department’s activities
include financial incentives (loans, loan guarantees, grants for capital equipment) for
farmers to grow crops that can produce renewable energy products such as ethanol.
USDA research agencies are engaged in developing and improving methods to produce
renewable energy.      In 2007, OIG will evaluate the Department’s efforts to foster
renewable energy technologies as well as the coordination between USDA agencies and
other Federal agencies. These audits are currently underway.


NRCS’ Wetlands Reserve Program (WRP) is a voluntary program offering landowners
the opportunity to protect, restore, and enhance wetlands on their property. NRCS
provides technical and financial support to help landowners with their wetland restoration
efforts. We are reviewing the legitimacy of restoration costs and the agency’s ability to
monitor restoration efforts. A related voluntary agency program is the Conservation
Security Program (CSP), in which payments are provided to landowners to maintain and
enhance natural resources. CSP identifies and rewards those farmers and ranchers who
are meeting the highest standards of conservation and environmental management on
their operations. The Government Accountability Office reported that NRCS lacked
adequate controls to prevent participants from receiving financial assistance from
multiple programs for the same conservation practice. OIG has initiated an audit to
determine whether NRCS has adequately implemented provisions of CSP.               We are
focusing on whether the agency has properly handled key issues such as program
eligibility, the calculation of program payments, and the detection of improper payments.


OIG also has an audit underway to review the agency’s procedures to assess and
prioritize the rehabilitation of dams constructed with NRCS funding.        Many of these
dams are nearing the end of their 50-year design life.         A recent survey of known
rehabilitation needs in 22 States revealed that more than 2,200 dams need rehabilitation at
                                                                                          24

an estimated cost of more than $540 million. The cost of rehabilitation will only increase
with time as deterioration increases, construction costs rise, and more rehabilitation needs
are identified. The Watershed Rehabilitation Program budget reported in the USDA FY
2008 Budget Summary and Annual Performance Plan is $6 million.                    Our primary
objective is to review the adequacy of NRCS program controls for the rehabilitation of
flood control dams to mitigate potential threat or danger to life and property.


Congress has provided substantial resources to support Agricultural Research Service
(ARS) research regarding a wide array of food quality and safety issues, nutritional
needs, and our environment’s natural resource base. ARS spends approximately $1.1
billion annually on 1,200 research projects organized into 22 national program areas at
100 locations and 4 overseas laboratories. We are currently evaluating the efficacy of
ARS management controls over its intramural and extramural research agreements to
ensure they are properly implemented. Our audit is examining ARS procedures to ensure
that research funding is used for its intended purposes, research projects are adequately
monitored, and project milestones are properly managed.


                  III. The Management of USDA’s Public Resources


Information Technology Security in USDA


In recent years, USDA’s Office of the Chief Information Officer (OCIO) and OIG have
placed a major emphasis on the need to plan and implement effective information
technology (IT) security for the Department. OIG continues to conduct various audits
and reviews of the Department’s        IT security systems to assess and improve their
performance.


Based on our reviews in 2006, the National Information Technology Center (NITC) in
Kansas City, Missouri, sustained its unqualified opinion on its general control structure,
and OCFO’s National Finance Center (NFC) in New Orleans, Louisiana, received its first
unqualified opinion on its design of its general control structure. However, we issued a
                                                                                          25

qualified opinion on the effectiveness of NFC’s controls because the controls were not
operating during the entire year. This effectiveness qualification was primarily attributed
to the disruptive effects of Hurricane Katrina on NFC’s normal operating procedures.
When our review determined that certain controls were not adequately designed, OCFO
NFC updated its procedures to address our concerns.


As required by the Federal Information Security Management Act of 2002, our annual
audit of the Department’s IT security program continued to find significant weaknesses.
These included needed improvement in contingency planning and testing, annual risk
assessments, and configuration management.         Due to the significance of the issues
identified in our reviews, we continue to classify IT security as a material internal control
weakness for USDA.


USDA’s Universal Telecommunications Network (UTN) is the critical general support
system serving the Department’s data network backbone for telecommunications and
network support services. We identified weaknesses in OCIO’s ability to effectively
manage and secure the UTN. OCIO had not completed required system testing, security
control testing, and certification/accreditation of the UTN network prior to
implementation. OCIO concurred with our recommendations and has taken significant
actions to address identified weaknesses.


Reducing Risks From Stolen USDA Computer Equipment


In light of the disclosure or theft of Privacy Act/sensitive information from several
Federal agencies in 2006 and OMB’s recent mandates on securing such information, OIG
is assessing potential risks at USDA. We are issuing a report this week from our review
of stolen equipment within USDA.


To the extent possible, we identified the information maintained on the stolen computers
as well as sensitive information currently maintained on computers within the
Department. OIG found that controls over stolen computer equipment were lacking in
                                                                                              26

the four USDA agencies reviewed. 9 Specifically, we found Privacy Act/sensitive
information was stored on computers that were stolen and the agencies did not notify the
individuals whose information may have been compromised.                   Additionally, these
agencies lacked policies and procedures to adequately notify proper authorities and
affected parties when thefts of computer equipment occurred. The agencies agreed with
OIG’s recommendations.


To date, OCIO has provided agencies with limited guidance on what actions to take if
computers are lost or stolen. OIG recommended that OCIO implement Departmentwide
guidance regarding tracking and reporting requirements for lost/stolen computer
equipment.       This should include procedures for determining whether the subject
equipment may have contained Privacy Act or sensitive information.


USDA Procedures to Assess Employee Civil Rights Complaints


We have previously presented testimony to the Subcommittee about our audit work
focusing on the Department’s processes and performance in handling allegations of
discrimination against USDA employees or in USDA programs. Our most recent civil
rights audit 10 assessed the Office of the Assistant Secretary for Civil Rights (ASCR)
implementation of prior OIG recommendations that focused on the agency’s management
and oversight of program and employment complaints.                   In response to a 2006
congressional request, we initiated an audit to evaluate the Department’s progress in
addressing employee civil rights complaints and employee accountability for acts of
discrimination.      OIG will identify and evaluate the adequacy of the Department’s
controls to properly process employee civil rights complaints and its processes to hold
employees accountable for discrimination towards employees or in USDA programs. We
anticipate issuing this report by the end of March 2007.




9
    FSA, NRCS, RD, and OCIO.
10
    “Follow-up on Prior Recommendations for Civil Rights Program and Employee Complaints,” issued
    September 2005.
                                                                                          27


The National Computer Forensic Division: Advanced Investigative and Evidentiary
Support


As an authoritative resource in the investigation and analysis of network intrusions and
attacks on USDA networks, OIG’s National Computer Forensic Division (NCFD)
conducts thorough and accurate analyses of any IT network compromise by analyzing
compromised servers, firewall logs, Intrusion Detection System logs, and Internet
Protocol traffic logs. The NCFD continues to provide support, training, and advice on
evidence collection and analysis to USDA agencies. During the past year, the NCFD
provided onsite search warrant assistance for 12 warrants and analysis for 38 cases
involving criminal activity, employee misconduct, and network intrusions.


An example of NCFD’s work includes an investigation that was requested by the
Department relating to a network intrusion and two servers that were compromised.
NCFD determined that while two computer servers had been compromised multiple
times by hackers in June 2006, the database containing personal identity information for
26,000 USDA employees had not been compromised or transferred from USDA
computers. OIG is working with OCIO to ensure that all USDA networks and employee
personal information are secure.


Another recent investigation involved a woman employed as a Geographic Information
Systems (GIS) technician with FSA. The woman reproduced and sold 41 pirated copies
of USDA-licensed software on two Internet auction websites. The woman received
$7,120 from the sales of the pirated software although its retail value exceeded $326,000.
In June 2006, the woman pled guilty in a Federal court in Indiana to copyright
infringement and was sentenced to 5 years of probation, restitution of $7,120 to the
company owning the software copyright, and forfeiture of all computer-related
equipment seized at her residence.      This case resulted in the first Federal criminal
conviction in Indiana involving the illegal sale of copyrighted materials over the Internet.
                                                                                                 28

NCFD forensically imaged and analyzed the hard drives of eight computers in the GIS
lab of FSA’s Indiana State office for evidence that the software was copied utilizing one
of the FSA computers. The forensic analysis produced evidence that was utilized in
negotiating a guilty plea.


USDA Financial Management


As defined by the Government Accountability Office (GAO), success in Federal financial
management is an unqualified audit opinion with no reportable conditions and no
instances of noncompliance with laws and regulations.               In 2006, the Department’s
financial statements received unqualified audit opinions, as did six USDA entities. 11
This is an improvement from previous years.              However, the Department and three
agencies had material weaknesses and reportable conditions. The Department and four
agencies also had instances of noncompliance with laws and regulations.


Specifically, the Department’s material weaknesses related to improvements needed in
overall financial management across USDA and IT security and controls. A reportable
condition existed related to improvements needed in certain financial management
practices and processes. Three instances of noncompliance were identified relating to the
Federal Financial Management Improvement Act, the Improper Payments Information
Act, and Managerial Cost Accounting practices. OIG continues to work with OCFO to
ensure effective financial management throughout USDA.


The Role of USDA and Agriculture in Protecting the Chesapeake Bay Watershed


The Chesapeake Bay Program, which is administered by the U.S. Environmental
Protection Agency (EPA), is mandated to direct restoration of the Chesapeake Bay
through a regional partnership of Federal, State, and local agencies, academic
institutions, and non-government organizations. OIG participated in a joint review of the

11
  Federal Crop Insurance Corporation, Commodity Credit Corporation, FS, Rural Telephone Bank, FNS,
and RD.
                                                                                       29

program with EPA’s OIG that concentrated on the agricultural best management
practices used to address non-point nutrient and sediment loading to the Chesapeake Bay
watershed.


Despite significant efforts to improve water quality in the Chesapeake Bay watershed,
excess nutrients and sediment continue to impair the Bay’s water quality. Our joint
review found that few of the agricultural practices in the State tributary strategies have
been implemented because the agricultural community considers many of these practices
to be either unprofitable or to require significant changes in farming techniques. We
found that EPA must improve its collaboration with its Bay partners and the agricultural
community to reduce the agricultural nutrients and sediments entering the Chesapeake
Bay watershed.     Members of the agricultural community have been reluctant to
participate in this endeavor with EPA because of its regulatory enforcement role.


We recommended that the Secretary or Deputy Secretary assign a senior-level official
with commensurate authority to coordinate relevant USDA goals and programs with EPA
and the Chesapeake Bay Program. USDA should consider the feasibility of targeting
USDA funds on a regional and/or geographical basis to assist the Bay’s environmental
restoration.   The Department should also direct USDA agencies to expedite the
establishment of outcome-based performance measurements to properly evaluate their
conservation activities. USDA generally agreed with our recommendations.


Evaluating Forest Service Use of Private Wildland Firefighting Crews


As wildfire activity on National Forests (NF) has become more intense, FS has made
increasing use of contract suppression crews to supplement agency resources.           FS
incident management personnel had previously noted numerous performance problems
with poorly trained and inexperienced crews. Other reports (GAO, incident management
                                                                                                       30

personnel) have indicated similar problems. We evaluated FS’ administration of these
contracts and its coordination with other parties 12 that also use these contracts.


We determined that FS needed to improve its contract oversight to ensure that contract
employees had met both the training and experience requirements for the positions they
held on fire fighting crews. Our review found that a significant number of contract
firefighters may not have been qualified to perform the duties required under the contract.
FS needed to address control weaknesses with wildfire suppression associations 13 that
provide training to contract employees. Language proficiency assessments should be
improved to ensure contract crew personnel can communicate adequately with FS
incident management personnel. Finally, we recommended that FS coordinate with other
Federal agencies to identify undocumented workers on contracted crews. FS officials
agreed with all of OIG’s recommendations and established timeframes for corrective
actions.


Reducing Forest Service’s Large Fire Suppression Costs: Shared Responsibilities


FS’ wildfire suppression costs have exceeded $1 billion in 4 of the past 7 years. Our
audit focused on the most significant “cost drivers” that were impacting fire suppression
costs. We determined that the majority of FS’ large fire suppression costs are directly
linked to protecting private property–as opposed to National Forest System land–in the
wildland urban interface (WUI). FS managers need to evaluate their agreements with
State and local governments to ensure the costs of protecting the WUI are appropriately
apportioned. A significant portion of these costs can be avoided and the safety of
firefighters improved if the Federal Government can proactively work with State and
local governments regarding prudent “Firewise” zoning and building codes.




12
   Primarily State and local governments. The crews at issue in this report were obtained from the Oregon
Department of Forestry’s list.
13
   Private organizations that represent wildfire suppression contractors and provide training to their
employees.
                                                                                          31

In another report focusing on wildland fire issues and the Healthy Forest Initiative, we
determined that FS needs to change some policies regarding wildland fire use (WFU).
Hazardous fuels such as dead vegetation and undergrowth in our national forests are
increasing the size and complexity of wildland fires. FS needs to reduce these fuels,
increase the number of qualified personnel, and expand WFU to help control the costs of
future fires. OIG further recommended that the agency implement improved processes to
more effectively hold managers accountable for the financial impact of their decisions.


FS agreed with our findings and recommendations and initiated corrective actions. These
include working with OIG to jointly develop training for FS personnel conducting
reviews of large fire operations. FS and OIG will jointly conduct the training prior to the
2007 fire season.


                          IV. OIG’s FY 2008 Budget Request


Before concluding, I would like to briefly comment on OIG’s FY 2008 Budget Request.
With your assistance and support, we are pleased to have built a solid record of
constructive audit oversight and investigative accomplishment. Over the last 4 years we
have produced a return on investment of $5.34 for each dollar of appropriated funds you
have provided. During that period, our work has produced over $1.65 billion in actual
monetary recoveries and cost avoidances, 1,449 indictments and 1,358 convictions. In
addition to our monetary results, we have made numerous recommendations that resulted
in substantive management and program improvements. For example, in FY 2006 we
issued 425 program improvement recommendations and USDA managers agreed to
implement 384 of them. These recommendations involved issues of congressional and
public concern such as improving surveillance and monitoring of AI in domestic poultry,
strengthening USDA’s food inspection operations, and improving the collection of
unauthorized farm program payments.
                                                                                           32

In addition to the statistical accomplishments mentioned above, FY 2006 and the first few
months of FY 2007 have been a particularly productive time for OIG in other ways as
well. The following activities may be of particular interest to the Subcommittee.


•   OIG has devoted over $2 million dollars and several staff years to providing oversight
    to USDA programs supporting the Gulf Cost region devastated during the 2005
    hurricane season in order to increase accountability in these programs and avoid
    waste and fraud in the distribution of benefits. The $445,000 Congress authorized in
    the FY 2006 emergency supplemental to support these efforts was of great assistance.
    Currently, we have 11 audits and 11 investigations underway pertaining to USDA
    hurricane recovery assistance programs.


•   We also directed resources to review Departmental plans to deal with the threatened
    avian influenza pandemic, by advising the Department on how it could improve its
    plans and programs.


•   OIG took prompt and comprehensive action to evaluate the implementation of the
    Department’s IT security system. Through a coordinated program of audits,
    investigations, and other reviews, USDA OIG is addressing the areas of highest risk
    and providing insight and support to USDA program agencies.


•   We formed an Office of Inspections and Research (OIR) to address emerging issues
    that may require scientific, legal, statistical, or other expert competencies. Generally,
    OIR will conduct short-term, focused reviews and inspections of USDA’s programs
    and operations. OIR projects completed in the last year and currently underway
    include:


    ¾ A review of the Federal crop insurance program that, in collaboration with FSA
       and RMA, identified a number of fraud indicators or conditions that are often
       associated with fraud, waste, and mismanagement.
                                                                                        33

    ¾ An inspection regarding the coordination of the Department’s international
       activities and agreements.


    ¾ An inspection of the security practices at a USDA laboratory that found the
       laboratory had made many improvements, both physical and through extensive
       training of personnel.


•   We were able, with the support of our congressional appropriators, particularly the
    members of this Subcommittee, to strengthen our ability to support USDA programs
    through effective audits and investigations.        Five years ago our information
    technology systems were inadequate to support our audit and investigative program.
    Thanks to your continued support, our IT environment is current and able to support
    sophisticated audit and investigative techniques. From FY 1996 to FY 2006, OIG’s
    staff level fell a total of 21%–which directly translates into a commensurate reduction
    in our audit and investigative capacity.    With your support, we were able to arrest
    that trend in FY2006 and have begun–in a very small way–to strengthen our capacity.


We are asking today for your support in continuing our efforts to maintain, and in some
areas even improve, OIG effectiveness in FY 2008. The President’s request asks for the
minimum necessary to support our staffing level and advance our ability to safely and
effectively respond to emerging public health and agriculture security threats.
Specifically, the President's FY 2008 request of $84 million for OIG provides for:


•   $1.9 million for 2008 mandatory pay costs.


•   $994,000 for 2007 pay costs.


•   $340,000 to fund five staff to reinforce our audit, investigation, and inspection
    programs focusing on the approximately $20 billion spent annually on USDA farm
    programs.
                                                                                       34


•   $757,000 for necessary equipment and training updates to the Computer Forensics
    Unit and the Emergency Response Team, and implementation of an automated audit
    workpaper system that will improve the timeliness of our audits and ensure that audit
    evidence is kept in accordance with Department of Justice standards.


This concludes my testimony. I again want to thank the Members of the Subcommittee
for the opportunity to discuss OIG’s activities with you today. My senior management
team and I will be pleased to address any questions you may have.
